<html>
<title> - HEARING ON THE 2008 PRESIDENTIAL PRIMARIES AND CAUCUSES: WHAT WE'VE LEARNED SO FAR</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
  HEARING ON THE 2008 PRESIDENTIAL PRIMARIES AND CAUCUSES: WHAT WE'VE 
                             LEARNED SO FAR

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                 HELD IN WASHINGTON, DC, APRIL 9, 2008

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html




                     U.S. GOVERNMENT PRINTING OFFICE

42-953 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001



                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


  2008 PRESIDENTIAL PRIMARIES AND CAUCUSES: WHAT WE'VE LEARNED SO FAR

                              ----------                              


                        WEDNESDAY, APRIL 9, 2008

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 11:37 a.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Gonzalez, Ehlers, 
Lungren, and McCarthy.
    Also Present: Representative Meek.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff/
Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Daniel Favarulo, Legislative 
Assistant, Elections; Gregory Abbott, Policy Analyst; Gineen 
Beach, Minority Election Counsel; Ashley Stow, Minority 
Election Counsel; Bryan T. Dorsey, Minority Professional Staff; 
and Fred Hay, Minority General Counsel.
    The Chairman. Good morning, everyone, and welcome all of 
you to our Committee on House Administration hearing. I would 
like to call our hearing to order.
    The Presidential election of 2000 brought to light many 
troubles with our elective process. The problems with that 
election led to the passage of the Help America Vote Act, HAVA, 
developed by this committee.
    Today, we sit just 30 weeks away from the next Presidential 
election, an election which, based on the turnout we have seen 
on the primaries to date, will test our system of election 
administration more than any election in the country's history. 
Despite all the problems that we have learned about from our 
recent elections, we are still hearing about long lines, 
machine failures, not enough ballots and other problems at the 
polls.
    I am greatly concerned to learn about these repeated 
challenges. I hope this hearing will send a message to the 
States that America is coming to the polls in November, and we 
need to be ready.
    The other message that I hope this hearing will offer us is 
that election officials need enough trained poll workers to 
help them run elections. Most election officials are dedicated 
public servants or volunteers who work long hours with little 
or no pay. We are not here to blame these volunteers--God 
knows, we need them--but to ask you how we can help voters who 
have experienced problems at the polls. I hope that by 
highlighting the important role poll workers play in helping 
people vote, other citizens will be inspired to volunteer.
    Since 2004, the MyVote1 hotline has worked with media 
outlets such as NBC News and the Tom Joyner Morning Show to 
collect, archive and analyze the audio recordings of real 
voters in real election settings confronting real problems. Tom 
Joyner's leadership as a national media partner presents a 
model for other media outlets to educate and engage voters.
    The NAACP National Voter Fund, The Reform Institute and The 
National Coalition on Black Civic Participation have worked 
tirelessly with other civil rights and voting advocates in the 
area of election administration and reform. We recognize the 
list of concerned citizens and advocates devoting incredible 
time and resources to improve the election process is growing 
each day, and I am glad to have a few of these groups with us 
here this morning.
    The hotline run by today's witness, Mr. Joyner, allows his 
extensive listener base to share their polling place 
experiences. Mr. Joyner has been a strong advocate for voter 
enfranchisement on a national level, and I applaud his work, 
and I share his goals.
    I would like to know if any of our members would like to 
make an opening statement. Any statements?
    Ms. Lofgren. Mr. Chairman, I would just like to commend you 
for calling this hearing.
    I think that we have learned some things so far in this 
election. This is an excellent opportunity for us to be 
apprised of what these excellent witnesses have discovered.
    I would like to ask unanimous consent to put in the record 
testimony from the Lawyers Committee for Civil Rights and the 
People for the American Way.
    The Chairman. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.001
    
    [GRAPHIC] [TIFF OMITTED] 42953A.002
    
    [GRAPHIC] [TIFF OMITTED] 42953A.003
    
    [GRAPHIC] [TIFF OMITTED] 42953A.004
    
    [GRAPHIC] [TIFF OMITTED] 42953A.005
    
    [GRAPHIC] [TIFF OMITTED] 42953A.006
    
    [GRAPHIC] [TIFF OMITTED] 42953A.007
    
    [GRAPHIC] [TIFF OMITTED] 42953A.008
    
    [GRAPHIC] [TIFF OMITTED] 42953A.009
    
    [GRAPHIC] [TIFF OMITTED] 42953A.010
    
    [GRAPHIC] [TIFF OMITTED] 42953A.011
    
    [GRAPHIC] [TIFF OMITTED] 42953A.012
    
    [GRAPHIC] [TIFF OMITTED] 42953A.013
    
    [GRAPHIC] [TIFF OMITTED] 42953A.014
    
    [GRAPHIC] [TIFF OMITTED] 42953A.015
    
    [GRAPHIC] [TIFF OMITTED] 42953A.016
    
    [GRAPHIC] [TIFF OMITTED] 42953A.017
    
    [GRAPHIC] [TIFF OMITTED] 42953A.018
    
    [GRAPHIC] [TIFF OMITTED] 42953A.019
    
    [GRAPHIC] [TIFF OMITTED] 42953A.020
    
    [GRAPHIC] [TIFF OMITTED] 42953A.021
    
    [GRAPHIC] [TIFF OMITTED] 42953A.022
    
    [GRAPHIC] [TIFF OMITTED] 42953A.023
    
    [GRAPHIC] [TIFF OMITTED] 42953A.024
    
    [GRAPHIC] [TIFF OMITTED] 42953A.025
    
    [GRAPHIC] [TIFF OMITTED] 42953A.026
    
    [GRAPHIC] [TIFF OMITTED] 42953A.027
    
    [GRAPHIC] [TIFF OMITTED] 42953A.028
    
    [GRAPHIC] [TIFF OMITTED] 42953A.029
    
    [GRAPHIC] [TIFF OMITTED] 42953A.030
    
    [GRAPHIC] [TIFF OMITTED] 42953A.031
    
    [GRAPHIC] [TIFF OMITTED] 42953A.032
    
    [GRAPHIC] [TIFF OMITTED] 42953A.033
    
    [GRAPHIC] [TIFF OMITTED] 42953A.034
    
    [GRAPHIC] [TIFF OMITTED] 42953A.035
    
    [GRAPHIC] [TIFF OMITTED] 42953A.036
    
    [GRAPHIC] [TIFF OMITTED] 42953A.037
    
    [GRAPHIC] [TIFF OMITTED] 42953A.038
    
    [GRAPHIC] [TIFF OMITTED] 42953A.039
    
    [GRAPHIC] [TIFF OMITTED] 42953A.040
    
    [GRAPHIC] [TIFF OMITTED] 42953A.041
    
    [GRAPHIC] [TIFF OMITTED] 42953A.042
    
    [GRAPHIC] [TIFF OMITTED] 42953A.043
    
    [GRAPHIC] [TIFF OMITTED] 42953A.044
    
    [GRAPHIC] [TIFF OMITTED] 42953A.045
    
    [GRAPHIC] [TIFF OMITTED] 42953A.046
    
    [GRAPHIC] [TIFF OMITTED] 42953A.047
    
    [GRAPHIC] [TIFF OMITTED] 42953A.048
    
    [GRAPHIC] [TIFF OMITTED] 42953A.049
    
    [GRAPHIC] [TIFF OMITTED] 42953A.050
    
    [GRAPHIC] [TIFF OMITTED] 42953A.051
    
    [GRAPHIC] [TIFF OMITTED] 42953A.052
    
    [GRAPHIC] [TIFF OMITTED] 42953A.053
    
    [GRAPHIC] [TIFF OMITTED] 42953A.054
    
    [GRAPHIC] [TIFF OMITTED] 42953A.055
    
    [GRAPHIC] [TIFF OMITTED] 42953A.056
    
    Ms. Lofgren. I yield back.
    The Chairman. Thank you.
    Mr. Lungren. I ask unanimous consent that several articles 
and a letter be placed in the record for today's hearing.
    The Chairman. Without objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.057
    
    [GRAPHIC] [TIFF OMITTED] 42953A.058
    
    [GRAPHIC] [TIFF OMITTED] 42953A.059
    
    [GRAPHIC] [TIFF OMITTED] 42953A.060
    
    [GRAPHIC] [TIFF OMITTED] 42953A.061
    
    [GRAPHIC] [TIFF OMITTED] 42953A.062
    
    [GRAPHIC] [TIFF OMITTED] 42953A.063
    
    [GRAPHIC] [TIFF OMITTED] 42953A.064
    
    [GRAPHIC] [TIFF OMITTED] 42953A.065
    
    [GRAPHIC] [TIFF OMITTED] 42953A.066
    
    [GRAPHIC] [TIFF OMITTED] 42953A.067
    
    [GRAPHIC] [TIFF OMITTED] 42953A.068
    
    [GRAPHIC] [TIFF OMITTED] 42953A.069
    
    [GRAPHIC] [TIFF OMITTED] 42953A.070
    
    [GRAPHIC] [TIFF OMITTED] 42953A.071
    
    [GRAPHIC] [TIFF OMITTED] 42953A.072
    
    [GRAPHIC] [TIFF OMITTED] 42953A.073
    
    The Chairman. The MyVote hotline has received over 40,000 
calls in 2008. I would like to play for the committee a tape 
provided by Mr. Joyner to give an idea of the problems his 
listeners have experienced. I look forward to hearing from our 
witnesses regarding these problems and for proposed solutions 
to ensure that the 2008 general election run smoothly. 
Americais the greatest democracy in the world, and our election 
should reflect that fact. So I would like to have somebody run 
those calls that were made to Joyner's show.
    [Tape played.]
    The Chairman. Thank you.
    I would also like to ask unanimous consent that our 
colleague from Florida, Mr. Meek, sit up on the rostrum with 
us.
    No objections. Thank you.
    And I would like to ask our ranking member, Mr. Ehlers, if 
he has an opening statement.
    Mr. Ehlers. Thank you, and I apologize for my delay. I was 
in a meeting that was very urgent and just had to stay until we 
resolved it.
    I have a long opening statement, but let me just put it 
into the record in the interest of time.
    I am very concerned about anyone being denied the 
opportunity to exercise their franchise to vote. That shouldn't 
happen.
    I also recognize that we have a very complex voting system 
operated by 50 States and numerous different jurisdictions, and 
it's impossible in my experience--and I have some 30 years 
experience working on this, to keep all the poll workers 
trained and on their toes all the time.
    A number of instances that I have encountered which were 
malicious in the sense that someone deliberately was trying to 
keep someone else from voting, those are extremely rare. There 
are a lot of errors made--I shouldn't say a lot, but there are 
a number of errors made by poll workers and by voters 
themselves in not either fully understanding the rules or 
following the rules, and so I think it's important to keep that 
in mind when we are talking about this situation.
    If we can in fact prove that there are deliberate attempts 
to prevent people from voting, that is a crime and should be 
handled that way. So I hope we will keep that in mind and be 
kind and thoughtful in the treatment of poll workers. Those 
poor folks, they only do this a couple times a year. It is easy 
to forget from one election to another. Many times, they are 
elderly, and they have to work 12- to 14-hour days. It is 
really a tough job, and I admire their interest and their 
stamina in doing it. I am very slow to condemn them for doing 
things wrong, but they do make mistakes, just as we make 
mistakes now and then.
    So I am interested in hearing the testimony and hearing 
what happened, but let me say that I am a little skeptical that 
someone claims that someone deliberately and illegally stopped 
them from voting. If that in fact did happen, that is, as I 
said, a crime. There should be a mechanism for calling that to 
attention and seeing that they are dealt with according to the 
law.
    With that, Mr. Chairman, I will yield back.
    The Chairman. I thank the gentleman.
    [The statement of Mr. Ehlers follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.074
    
    [GRAPHIC] [TIFF OMITTED] 42953A.075
    
    [GRAPHIC] [TIFF OMITTED] 42953A.076
    
    The Chairman. I would like to now introduce our panel and 
thank you for your participation and for being here today.
    Our first panelist, Tom Joyner, host of the Tom Joyner 
Morning Show. He has received dozens of honors for his work, 
including being admitted to the National Radio Hall of Fame. A 
strong advocate for civil rights and has led countless voter 
registrations and Get Out the Vote efforts. His foundation has 
donated more than $55 million to improve the lives of those in 
need, particularly after Hurricane Katrina. He's a dynamic and 
influential personality, and I am honored to have you here this 
morning.
    Greg Moore, Director of NAACP National Voter Fund. Prior to 
joining NAACP, he worked on Capitol Hill as a Legislative 
Director and Chief of Staff. Thank you, sir.
    John Bonifaz, Legal Director of Voter Action. Prior to 
joining Voter Action, he worked for more than 12 years at the 
National Voting Rights Institute where he worked to protect the 
integrity of our electoral process. Thank you for being here.
    Cecilia Martinez, Executive Director of The Reform 
Institute. Prior to joining The Reform Institute, she was 
Director of the Clean Elections Institute in Arizona. Thank 
you.
    And last but certainly not least, Mr. Ken Smukler, 
President of InfoVoter Technologies, which created and 
maintains the MyVote1 hotline. We will be hearing from him 
today.
    Mr. Joyner, I know you are probably not used to talking in 
front of a microphone, but we need to push the button. All of 
you on the panel have a button in front of you. When you speak, 
you have to push it.
    We have a box that tells you we have 5 minutes. That tells 
you when it is time to sum up and when it is time to stop. I am 
lenient with that. I let people talk maybe sometimes too much, 
but if you get redundant, I will warn you that you had enough 
time.

STATEMENTS OF TOM JOYNER, RADIO HOST, TOM JOYNER MORNING SHOW; 
GREG MOORE, EXECUTIVE DIRECTOR, NAACP NATIONAL VOTER FUND; JOHN 
   BONIFAZ, LEGAL DIRECTOR, VOTER ACTION; CECILIA MARTINEZ, 
  EXECUTIVE DIRECTOR, THE REFORM INSTITUTE; AND KEN SMUKLER, 
                     INFOVOTER TECHNOLOGIES

    The Chairman. So right now, Mr. Joyner, it is my pleasure, 
and again I welcome you, and I thank you for your 
participation.

                    STATEMENT OF TOM JOYNER

    Mr. Joyner. Thank you.
    Thank you, Chairperson Brady and committee members, for the 
opportunity to talk to you about this very important issue 
affecting our voters. I am Tom Joyner, and as a radio 
broadcaster I deal daily with theater of the mind, so I would 
like for you to join me in this exercise.
    Imagine yourself as a 30-year-old working mother of two. 
You arrange for your mom to take your kids to school on this 
day so that you can get to your polling place when it opens at 
7:00 a.m. You anticipate being in line for 45 minutes to an 
hour and you have to be at work at 9:00. You are not a regular 
voter. In fact, this is your first time voting in a 
Presidential primary.
    You get to your polling place at 7:05, and the polls 
haven't opened. There are more than 100 people in line; and 
when the polls do finally open at 7:30, you notice that the 
line is moving at a snail's pace. The reason for the delay is 
that there aren't enough machines, there isn't enough manpower, 
there aren't enough I.D. verification machines or they have run 
out of ballots.
    You want to wait in line until the problems are fixed, but, 
if you do, there is no way that you'll make it to work on time. 
Maybe you'll have time to vote after work, if your boss lets 
you leave on time and your mom agrees to pick up the kids from 
daycare. But if they didn't have enough machines at 7:30 in the 
morning, they most certainly won't have enough at 6:00 in the 
evening. So the lines will be even longer and move slower than 
they did in the morning. So you pass; you pass on this 
election.
    My show, the Tom Joyner Morning Show, reaches nearly 8 
million mostly African American people every week; and since so 
many African Americans do tune in to hear our show, along with 
being called the hardest-working man in radio, I am sometimes 
called the voice of black America.
    When CNN, C-SPAN or any major TV network, a President of 
the United States or Presidential candidate wants to speak to, 
or hear from African Americans, they know that I am the person 
to come to. It is a huge responsibility, and I take it very 
seriously. It is all a part of my ongoing goal to ``super-
serve'' my audience. That means to be in touch with what they 
want and need and to provide that by entertaining, educating 
and empowering our listeners.
    The best way to empower our listeners is by registering 
them to vote. Through our partnership with the NAACP voting 
fund, as of Friday we have registered nearly 21,000 people and 
received in total more than 45,000 phone calls at 1-866-MyVote-
1. A lot of those calls were about poll locations, but most of 
the calls were complaining about problems that they experienced 
at their polling places.
    On Tuesday, February 5th, Super Tuesday, we received nearly 
10,000 calls throughout my radio show, a 4-hour show, and 
throughout that day. We monitored those calls, and many of 
those calls came from voters in Atlanta. At one point during 
the radio show, we were receiving up to three calls a minute. 
They were calling to tell us that they were having problems 
voting, that the voter ID machines were not working, that in 
some cases there weren't enough voting machines. In other 
cases, they called us to complain about poll workers who didn't 
know how to fix problems when they were happening.
    And that is why I am here this morning. I know about the 
problems. My audience knows about the problems. Now you need to 
know about the problems, and you need to do what it takes to 
fix the problems.
    If I am concerned about making sure people register and 
actually getting the opportunity to exercise their right to 
vote, you really ought to be concerned.
    We aren't talking about apathetic people who won't take the 
time to vote. We are talking about people who have registered 
and have shown up at the polls ready and willing to cast their 
ballots. Voting irregularities either kept them from voting or 
made the process a lot more difficult than it should have been. 
We kept good records of these irregularities and are passing 
them along to you. My listeners are counting on me to do 
something about these irregularities, and I am counting on you.
    Sadly, we don't know how many people were turned away and 
how many people will not return to the polls in November 
because of their negative experience. Many of them start 
believing that these problems are designed to keep them from 
voting. They look back at the Presidential election in 2000 and 
2004 and wonder what kind of trickery is going to steal the 
elections this time around. They call me, and I hear the 
frustrations and the anger of my radio audience on our 1-866-
MyVote-1 hotline.
    So here is what I am urging you all to do before we get to 
November. One, get more voting machines to these polling 
places; two, do a better job of training poll workers so that 
they know how these machines work and how to fix problems; 
three, in Georgia, get more voter ID verification machines; 
and, finally, establish a national voting standard to avoid so 
much confusion in every city and State every election year.
    We want people to register to vote, but we are making it 
too difficult for them to vote.
    In keeping with the spirit of the election year, let me 
just say that I am Tom Joyner, and I approve this message. 
Thank you very much.
    The Chairman. Thank you, Mr. Joyner.
    [The statement of Mr. Joyner follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.077
    
    [GRAPHIC] [TIFF OMITTED] 42953A.078
    
    [GRAPHIC] [TIFF OMITTED] 42953A.079
    
    [GRAPHIC] [TIFF OMITTED] 42953A.080
    
    [GRAPHIC] [TIFF OMITTED] 42953A.081
    
    [GRAPHIC] [TIFF OMITTED] 42953A.082
    
    The Chairman. Mr. Moore.

                    STATEMENT OF GREG MOORE

    Mr. Moore. Thank you, Mr. Chairman, Ranking Member Ehlers. 
Thank you, members of the House Administration Committee. I 
want to thank you for the opportunity to present today.
    My name is Greg Moore. I am the Executive Director of the 
NAACP National Voter Fund, which is a 501(c)(4), a nonpartisan 
social welfare organization created by the NAACP in 2000, the 
Nation's oldest and largest civil rights organization 
celebrating its 100th anniversary in February of 2009 of 
consumer right advocacy.
    The Voter Fund's sole purpose is to promote voter 
registration, expand voter registration and protect the rights 
of voters seeking to exercise their right to vote.
    I want to especially thank you, Chairman Brady, and your 
staff for having the foresight to hold this hearing that allows 
us to take a bird's-eye view of the primary season so far.
    Some have raised questions on why hold the hearing now when 
we are still in the process of voting in States like 
Pennsylvania and others. It reminds me of a quote by Dr. King, 
a freedom fighter who tragically gave his life 40 years ago 
fighting for the right to vote and the civil rights of all 
Americans, regardless of race, religion or income. Dr. King 
spoke of the ``fierce urgency of now''. In one of his earlier 
books entitled ``Why We Can't Wait'', he talked about the 
importance of our government taking positive action now to deal 
with the problems of discrimination and disenfranchisement.
    It would be easy to wait until November 4th to see what 
voting disasters awaited us in Florida and Ohio or, as is more 
probable, in another State that would experience major 
problems, but problems, Mr. Chairman, that could have been 
avoided if we had simply stopped to analyze what we discovered 
during this first round of primaries.
    So I want to thank the partnership between the Voter Fund 
and the Tom Joyner Morning Show and the MyVote1 hotline 
developed by InfoVoter Technologies that allows us to analyze 
this data through academic institutions and advocacy groups 
like Voter Action and others. More importantly, the data can be 
analyzed by the House Administration Committee and, hopefully, 
by the Election Assistance Commission and also by election 
officials across the country before November 4th.
    There are those who believe that protecting the right to 
vote should be reserved to election officials and county 
governments, but we believe that people like Tom Joyner can 
play a very useful role in this effort as well as civil rights 
advocacy groups.
    During the 2008 primary, voters have had an opportunity to 
receive further assistance through this effort that was 
launched on November 19th. But since the first week in January, 
we saw a basic explosion of interest and this number of 
overwhelming response. And Tom gave you the numbers already of 
the registration numbers, 20,810, and the number of people 
calling about elections, 20,813.
    We are grateful for Tom and his entire Reach Media family 
for waking up at 3 o'clock in the morning every day to spread 
this word on his radio program about the importance of voting 
and encouraging his listeners to get involved in the process. 
Eight million listeners, as he mentioned, are listening to his 
show and that more people listen to his show than will ever 
read these pamphlets that are produced by Boards of Elections 
or Secretaries of State's offices and this information through 
this number is putting this information right at their 
fingertips.
    Our analysis of the hotline reveals that 72 percent of 
respondents who are calling are searching for their poll 
locations because they don't know where they should vote. This 
demonstrates that the MyVote1 hotline is providing very 
important information to voters, because it easy for many first 
time voters to not know.
    My son is here today, Greg, Jr., who voted for the first 
time; and also this is his first congressional hearing as well.
    Many of us in the population move, 20 percent of us every 
year; and even a higher number of percentage of African 
Americans and low-income people, move creating the 
vulnerability for voter purges. It is important that this 
MyVote number is able to service tens of thousands of voters 
who have moved since they last voted, because there are many 
families, as we all know, who are being displaced by 
foreclosures, by hurricanes, by floods, by tornadoes, by 
wildfires and other natural disasters. As people are more 
victimized by these disasters, they will need this type of 
assistance in finding their new poll locations.
    Many of us in the election business get information about 
polling data, but many of us know that this information is not 
readily available. In the little time I have left, I just want 
to make a couple of quick points.
    The hotline has captured 75,000 audio recordings since it 
began in 2004. You just heard some of those samples, so I won't 
give all of my examples that I wanted to give. But the 
preliminary findings suggest that this is a serious problem 
that plagues voters in every community and every State, because 
calls came in from all 50 States.
    When callers make a decision to call, they do so with the 
hope that someone is listening, that someone in authority is 
going to stand up and do something about these problems that 
they are encountering. Too often, they see the election 
procedures as too bureaucratic to participate in; and, despite 
the fact that we know that there is heavy turnout, there are 
still problems with not enough ballots in some of these 
elections.
    So now, instead of billy clubs or German Shepherds or 
problems that their grandparents faced, many of our new voters, 
particularly young voters, are turned away by long lines, by 
intransient poll workers who are not well-trained, or their 
data doesn't match on the statewide list and they are no longer 
able to exercise their right to vote.
    Mr. Chairman and Members of the committee, I hope that we 
look at these new procedures. We start to identify how we can 
make this system better.
    Just to sum up, MyVote1 is not the only hotline designed to 
help voters. There are legal hotlines and government-sponsored 
hotlines. What makes MyVote1 unique is that it captures and 
preserves the voices of those voters as these problems arise, 
and what distinguishes MyVote from other election hotlines is 
its ability to reach voters through the medium as the Tom 
Joyner Morning Show and other networks. These calls provide the 
type of assistance that has not really been done this early in 
the process during the primaries.
    So let me close by saying we have seen this primary an 
overwhelming number of voters turning out to vote. We have 
every reason to believe that if we had 400,000 calls in 2004 
that with this trend that we're looking at now there could 
easily be 750,000 people looking for help. I wouldn't be 
surprised if it even hit 1 million people on Election Day or 
leading up to Election Day looking for this type of help.
    So I applaud you for inviting the election officials here 
today to respond to some of this data as well. We respect the 
work that they do, and we know they are saddled by an enormous 
task of different laws that change and being underfunded, but I 
think there is a useful role for both election officials, 
advocates and the Federal government to play in helping to 
remedy the many problems that we have identified here today.
    I am gratified that this committee has chosen to lift up 
the work of Tom Joyner and our partnership; and, amid all the 
noise around this election, there is good news that a new town 
crier will be on the air throughout the remaining primaries and 
general election continuing to register voters, to provide 
voters with information that will ensure that their voices will 
be heard and that their complaints will be addressed and their 
rights to vote will be protected on November 4th.
    Thank you.
    The Chairman. Thank you, Mr. Moore, Sr.; and thank you, Mr. 
Moore, Jr., for participating in your first hearing.
    [The statement of Mr. Moore follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.083
    
    [GRAPHIC] [TIFF OMITTED] 42953A.084
    
    [GRAPHIC] [TIFF OMITTED] 42953A.085
    
    [GRAPHIC] [TIFF OMITTED] 42953A.086
    
    [GRAPHIC] [TIFF OMITTED] 42953A.087
    
    [GRAPHIC] [TIFF OMITTED] 42953A.088
    
    [GRAPHIC] [TIFF OMITTED] 42953A.089
    
    The Chairman. Mr. Bonifaz.

                   STATEMENT OF JOHN BONIFAZ

    Mr. Bonifaz. Thank you, Mr. Chairman, Ranking Member Ehlers 
and members of the committee. Thank you for holding this 
hearing on this critical matter and for the opportunity to 
testify before you today.
    My name is John Bonifaz. I serve as the Legal Director of 
Voter Action, a national nonprofit, nonpartisan organization 
dedicated to protecting our elections and our right to vote.
    Voter Action emerged in early 2005 following questions 
which arose in a 2004 Presidential election concerning the 
reliability and accuracy of our vote-counting process. Since 
that time, Voter Action has been at the forefront of the 
election integrity movement in the United States, fighting to 
ensure that our elections remain in the public domain 
controlled by the voters. Through legal advocacy, research and 
public education, we aim to protect an open and transparent 
election process, one in which our elections at the Federal, 
State and local levels are accessible and verifiable.
    In 2006, Voter Action initiated the Watch the Vote Program, 
an original effort to provide legal and organizational 
resources for citizen-led monitoring activities in the 2006 
election with State and national partner organizations.
    Voter Action has recently joined with the NAACP National 
Voter Fund and MyVote1 hotline to engage in election monitoring 
and protection of the 2008 election. We share the view that 
such public oversight can play a critical role in protecting 
the integrity of our elections.
    The data collected via the MyVote1 hotline thus far in the 
2008 Presidential cycle highlights, in part, a growing concern 
with a new phenomenon in our democracy: election privatization. 
Jurisdictions across the country are increasingly outsourcing, 
to private vendors, key election functions and, in the process, 
compromising the transparency and public control of our 
elections. A powerful example of this can be found in what 
happened this past February in the Georgia primary.
    As with a number of States, Georgia uses privatized 
electronic poll books, manufactured by Diebold Election 
Systems, now known as Premier Election Solutions. These 
electronic poll books determine whether or not a voter is able 
to access the ballot; whether or not a voter is able to 
exercise the franchise.
    During the February 5th, 2008 primary, the MyVote1 hotline 
received numerous calls, and we have heard some of them today, 
from voters in at least five Georgia counties reporting that 
the electronic poll books were crashing and inoperable, leading 
to long lines and citizens leaving polling sites without 
casting ballots.
    This is, unfortunately, not an isolated matter. In the New 
Mexico Presidential caucus for the Democratic party on February 
5th, 2008, a flawed voter registration database prepared for 
the State by the Election Systems and Software Company led to 
thousands of voters having to cast provisional ballots when 
their names did not appear on the voting rolls. Voters in other 
States, including Arizona, Louisiana, Maryland, New Jersey and 
Utah, have reported similar problems with accessing the ballot 
in this primary election season.
    Today, 33 States are slated to use electronic voting 
machines this November for the counting and recording of votes, 
despite a growing body of evidence that such systems are 
unreliable and do not meet basic security standards. With this 
growing influence and control by private companies in how we 
conduct our elections in this country, our democracy remains at 
serious risk.
    What can we do to address this danger and protect the 
integrity of our elections?
    First, citizen-led monitoring of our elections, such as the 
MyVote1 effort, is critically needed to identify election 
concerns and to collect the data from voters on Election Day. 
Without the MyVote1 hotline, it is unclear whether we would 
have learned of the extent of the problems with electronic poll 
books in Georgia in the February 5th primary.
    Second, the Election Assistance Commission, EAC, of which 
this committee has direct oversight, is not currently 
fulfilling its statutory duties as set forth by section 2 of 
the Help America Vote Act of 2002--section 202, rather. As a 
national clearinghouse and resource--quoting from that 
section--EAC ought to be reviewing and analyzing the data 
gathered by the MyVote1 hotline so as to ``promote the 
effective administration of Federal elections.''
    Further, the EAC does not engage in testing electronic poll 
books because the agency claims electronic poll books are not 
part of a voting system, and the EAC has yet to carry out its 
duties related to the certification, decertification and 
recertification of voting system hardware and software. To 
date, the EAC has not certified a single voting system in the 
United States to the new voting system standards it issued in 
December, 2005.
    Finally, we must reclaim public control of our public 
elections. This means the election process must be transparent, 
accountable and verifiable.
    When private companies deny independent investigation 
review of their voting systems, as they recently have done in 
New Jersey and in Florida, the integrity of the election 
process is undermined.
    When voting systems, including privatized voter 
registration databases and electronic poll books, are found to 
be unreliable, election officials ought to discontinue their 
use and employ safer and more accurate systems.
    When questions repeatedly emerge every election as to 
whether votes are being properly counted, as they have in the 
past several election cycles, rigorous and mandatory audits 
ought to be required with voter-marked paper ballot systems 
that are in fact auditable.
    More than a century ago, the United States Supreme Court 
stated in the case of Yick Wo v. Hopkins that the right to vote 
is ``a fundamental political right'' which is ``preservative of 
all rights.'' In 2008, we must remain ever vigilant in 
protecting this most basic right. Democracy demands no less.
    Thank you.
    The Chairman. Thank you.
    [The statement of Mr. Bonifaz follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.090
    
    [GRAPHIC] [TIFF OMITTED] 42953A.091
    
    [GRAPHIC] [TIFF OMITTED] 42953A.092
    
    [GRAPHIC] [TIFF OMITTED] 42953A.093
    
    [GRAPHIC] [TIFF OMITTED] 42953A.094
    
    The Chairman. Ms. Martinez.

                 STATEMENT OF CECILIA MARTINEZ

    Ms. Martinez. Good afternoon. Thank you, Chairman Brady, 
Ranking Member Ehlers, members of the committee.
    My name is Cecilia Martinez. I am the Executive Director of 
The Reform Institute. We appreciate you inviting The Reform 
Institute to participate on this panel.
    We are a 501(c)(3) educational organization. We are a 
multi-issue think tank, and we work to strengthen the 
foundations of our democracy and build a resilient Nation.
    We believe that an informed citizenry is a major component 
to building a resilient society. We have worked on election 
administration issues since our inception in 2001; and, thanks 
to the Carnegie Corporation of New York, we have become 
involved with the 866-MyVote-1 consortium in the 2004 
Presidential election.
    Since 2004, we've collected hundreds of thousands of 
records; and the evidence clearly shows that the two largest 
barriers to voters are, one, that they lack the basic 
information about poll location--they simply don't know where 
to go to vote--and, two, when voters show up at the polls, many 
find that their names do not appear on the registration rolls, 
despite the fact that they did register to vote. Oftentimes, 
they then vote provisionally.
    As you know, the hotline receives both poll location 
questions on one end, and it gives the callers the opportunity 
to register a complaint.
    Let me begin with poll location. The majority of the calls 
coming into the hotline are from voters looking for their 
polling site. The number of folks looking for poll location has 
increased exponentially. In the 2004 election, for example, 
half the callers that were calling into the hotline were 
specifically looking for their poll location. In the 2006 
midterm elections, that number increased to 65 percent; and so 
far in the 2008 Presidential primaries, that number has 
increased to 78 percent.
    There are practical solutions to increased voter awareness 
of their poll location. Elections officials can implement 
certain strategies well in advance of the election. Some of 
these practical solutions can include employing inexpensive 
basic education tools like post cards, e-mails, text messages, 
and robocalls, much like a political campaign.
    Elections administrators can also engage in public-private 
partnerships with consumer service providers such as your phone 
company, your wireless company, utilities, cable and Direct TV 
by including poll location with the billing statement.
    Also, church and community groups like the NAACP Voter Fund 
and Convoy of Hope can work with elections officials to reach 
out to those who may be difficult to reach.
    On Election Day, voters can use hotlines like the 866-
MyVote-1 to call and look for their poll location. Keep in mind 
that 82 percent of Americans have cell phones. When you go to 
the polls to vote in the morning or afternoon, you have your 
cell phone with you. It's really easy to call a hotline and 
find out where your poll location is.
    As to registration issues, to date in the 2008 Presidential 
primaries, 40 percent of the callers are saying they had 
registered to vote but did not appear on the voter rolls at the 
polls. This is consistently, since 2004, the largest complaint 
in our hotline, occurring twice as often as the other 
complaints discussed here today.
    The timely communication by voter registration operations 
and the respective local officials is one way we can help solve 
this problem. Part of the issue is that the 501(c)(3)s, the 
(c)(4)s, the 527s, the political parties that are out 
registering people to vote, need to be working and 
communicating with their local elections officials to give them 
the heads-up that they are out there doing the work, that they 
are giving them the heads-up on the numbers.
    This is often what happens with elections officials, that 
they just don't have the capacity to handle the onslaught of 
voter registration. It is in our best interest that the groups 
working on that voter registration that they talk to the 
election administrators and keep them in the loop about what is 
going on.
    Another solution should be to establish a tracking system 
for registration so that voters can see where their 
registration form is in the system. Many callers on the hotline 
say, I registered to vote at the grocery store, my community 
center, but I don't know where it is. I haven't gotten a card 
yet. This way, if you use a tracking system like Federal 
Express or UPS uses to track packages, then voters can see on 
line where their registration is; and it avoids that process.
    Improving voter access to basic information must be the 
cornerstone of our efforts to improve election administration. 
The technology is there. We need more collaboration between 
elections officials and the private sector to take advantage of 
innovative solutions like the hotline. Congress has a role to 
play in providing the leadership necessary to bring the 
relevant actors together, effectively utilizing technology.
    I want to thank you again for this opportunity and I look 
forward to your questions.
    The Chairman. Thank you.
    [The statement of Ms. Martinez follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.095
    
    [GRAPHIC] [TIFF OMITTED] 42953A.096
    
    [GRAPHIC] [TIFF OMITTED] 42953A.097
    
    [GRAPHIC] [TIFF OMITTED] 42953A.098
    
    The Chairman. Mr. Smukler, I know you're here for answering 
technical questions, but I will recognize you if you have 
anything.

                    STATEMENT OF KEN SMUKLER

    Mr. Smukler. Thank you, Mr. Chairman, Ranking Member Ehlers 
and Members of the Committee.
    My name is Ken Smukler; and I design, manage and operate 
the MyVote1 hotline. I will not be making an opening statement. 
I do stand ready to answer any questions with respect to the 
hotline, the data and how we archive it.
    Thank you.
    The Chairman. I thank all of you, and now we would like to 
open up for questions. I would like to start.
    Mr. Joyner, in Maryland, there were fliers distributed in 
the African American community in the last election that stated 
that certain candidates were supported by prominent African 
Americans that were not true. I understand there were also 
fliers put out that certain people vote on Tuesday and certain 
people vote on Wednesday. Is there anything that you could do--
or polling places have been moved, the locations--anything you 
can do on your hotline when you receive these calls to rectify 
that?
    I know you can speak on the air and you can speak to those 
problems, but, specifically, when somebody calls in, is there 
anything you can do to rectify that problem, especially with a 
polling place location, on the air?
    Mr. Joyner. Yes. And that is exactly what we do. We put it 
out on the air. Then, with the help of the NAACP Voter Fund, 
they got in touch with election official and tried to rectify 
the problem.
    A good example was in Fulton County, Georgia. When it was 
obvious that the lines were long and moving slow, that people 
were standing in bad weather for as much as 2 hours, the Voter 
Fund got in touch with election officials and tried to get the 
election officials to keep the polls open because of the slow 
lines and the problems that were encountered at the polls.
    The Chairman. We run across that problem from time to time 
in the City of Philadelphia. We need a judge to order that. We 
have to go in front of a judge to ask the judge to keep the 
polls open a little longer. That has happened, and we were able 
to do that.
    On your show, also, could you help us--I know it is 
critical for our election workers to be trained, and it is 
critical for the election process, and we don't have enough of 
them. Maybe you could put a commercial out there from time to 
time letting people know that we do need their participation, 
where they could go and how to contact their local elected 
official to volunteer or, in some cases, get paid for working 
on Election Day.
    Mr. Joyner. We plan to do just that.
    The Chairman. I appreciate that. Thank you.
    Mr. Smukler, we have a primary coming up in Pennsylvania--
these primaries happen all the time. Do you have the 
cooperation of the States as their primaries approach?
    Further do you have the cooperation from the local 
officials when you hear a complaint coming in habitually like 
in one certain area--do they recognize the fact that you call 
in to election officials, or anybody for that matter, the 
District Attorney, to give exposure to the problem? Do they 
show you that cooperation that they can to get out there and 
try to rectify the problem?
    Mr. Smukler. Mr. Chairman, my experience since 2004 is that 
with election officials it's a mixed bag. There are some very 
good election officials out there who work with us throughout 
the year to provide poll locations to the hotline. Since we 
build a national zip 9 to poll location file, we are working 
with the election officials all throughout the year to try and 
keep updated poll location information. Some are very good. 
Some, frankly, are lacking.
    My experience on Election Day, however--and I have said 
this on the Tom Joyner Morning Show--is a number of election 
officials treat incident problems on Election Day like Baghdad 
Bob treating the invasion, which is the bombs are falling, but 
nobody is saying that it is happening.
    And, frankly, one of the most important things that the 
hotline does is it allows us to show election officials from 
out of the voice of voters what is happening on Election Day. 
Prior to this system being set up, most of the information that 
election officials were responding to were spotty anecdotal 
pieces of information, very difficult to respond as an election 
official to that kind of information. This data, which drives 
voices of voters directly to the election officials, now forces 
the election officials to confront problems in a much clearer 
and much more empirical way and I think that is one of the 
greatest benefits of having data like this. It has forced 
election officials to at times own up to the problems that are 
occurring on Election Day.
    The Chairman. Well, we have one coming up in Pennsylvania. 
I know that the MyVote1 hotline will be in play. I know that 
Mr. Joyner will be on the radio. And I know that I, not as an 
elected official but as somebody who is involved in the 
political process in the City of Philadelphia will be listening 
to you, and you have my number to call me, and I will get to 
the right people to try to rectify any problems that happen to 
make sure that people do get the opportunity to get the right 
to vote that they so deserve.
    Mr. Smukler. Thank you, Mr. Chairman.
    The Chairman. One question for you, Ms. Martinez. You 
talked about people not being on the rolls to be able to vote. 
In the City of Philadelphia particularly, we have a provisional 
ballot that has just been brought into use which is really a 
great tool. Because if you are supposed to vote in a certain 
area, you can vote with a provisional ballot and after 
determining you should vote there, the vote is counted.
    And then, as Mr. Joyner said, the disadvantage and the 
inconvenience for people, if they have to go to a police 
station or go to city hall, it is a whole 2, 3, 4 hour thing 
waiting in line or whatever. So our provisional ballots work 
really, really well.
    I know that is not nationwide, but you said 40 percent of 
people are not in the binder or the voter rolls. Maybe through 
your good offices you can let people know it would be a good 
idea to have a provisional ballot.
    Now if you find out that you are not valid and you can't 
vote in that polling place, you are not supposed to vote there, 
your vote doesn't count. But if you found out 2 or 3 days 
later--as you well know, a lot of the elections go past 
election night at 8 o'clock; and if you do find out that you 
are able to vote at that particular polling place, you are 
eligible, then the provisional ballot will count.
    Do you find in other areas provisional ballots? We find 
them extremely helpful. I would like to hear your opinion.
    Ms. Martinez. I think, Mr. Chairman, that the provisional 
ballots have improved tremendously since the first go-round 
with provisional ballots. The key to it, though, is for 
voters--a major key to this is for voters to understand what 
the process is, to plan ahead and understand that if things 
don't go the way they think they are going to go, what are 
their rights, and the provisional ballot is important.
    We have improved so much. In the 2004 election, we had 
calls coming in from several of the urban areas that 
provisional ballots have run out, and people didn't realize--
the poll workers didn't realize that they could photocopy them. 
And The Reform Institute has been working with elections 
officials to make sure that understand that they can photocopy 
them. They are very basic things, but, as you have mentioned, 
poll worker training is so important, and we need to continue 
to train our poll workers continually.
    We also need to do what the private sector does, and that 
is continue to prepare and prepare for the worst so that we 
create redundancy in the process. And the private sector has 
done a great job with the financial services markets. Banks are 
constantly running backup systems. That is the kind of thing 
that I think election workers should continue to do, is do more 
training, often training and make sure that the poll workers 
are trained and, as we talked about before, that voters are 
educated as well about their rights when they go to the polls.
    The Chairman. Thank you. I appreciate that.
    Mr. Ehlers, any questions?
    Mr. Ehlers. Thank you, Mr. Chairman.
    First of all, I say amen to the comments you just made, Ms. 
Martinez. That is it in a nutshell. I have some 30 years 
experience working in this area, and you hit it right on the 
head.
    Mr. Joyner, you said you are the busiest man in the world. 
I bristled a little because I thought I was. Then I found out 
you get up 3:00 a.m. every day, so I cede the throne to you, 
you can claim it now.
    Mr. Bonifaz, the quote you gave was a beautiful quote at 
the end of your testimony of the Supreme Court decision that 
the right to vote is ``a fundamental political right'' which is 
``preservative of all rights.'' I totally agree with that, and 
I have a corollary to that which I always use as well: You also 
have to assure every voter not only that they have that 
fundamental political right, but you also have to assure them 
that that right will not be removed by nefarious means by 
someone voting illegally and diluting the vote of the person 
who voted rightfully.
    I have always concentrated on both sides of that. Make sure 
voters have the right to vote as they wish, but also make sure 
that you don't have fraudulent votes that tend to negate the 
vote, and that is just my political philosophy. Some say there 
is no fraud, but there is fraud of various sorts, not so much 
on the part of individuals but on the part of organizations or 
groups.
    I think the provisional ballots have taken care of a lot of 
the problems that were mentioned here. They, of course, have to 
be done carefully; and, also, the voters have to follow up if 
for some reason they have to demonstrate that the voting 
records are wrong and they may have to reappear or go to the 
city clerk's or county clerk's office and correct the error, 
but provisional ballots I think can clear up a lot of mistakes 
that happen.
    As you know, elections are run by States and localities, 
not by the Federal Government. In fact, we have probably in the 
last 5 years intervened more in the operation of local and 
State elections than ever before in the history of this 
country. But, nevertheless, it still is a responsibility of the 
localities and the States.
    The issue of training poll workers, I am always a little 
skeptical about that. Because it is awfully hard to train a 
worker to do something that they only do two or three times a 
year and have them remember from one event to the other. You 
really have to do the training for every election. But also a 
problem we have come into with the electronic age is many of 
the poll workers don't know how to run a computer, don't know 
how to run the equipment, and that is a higher level of 
training.
    In my community and I think in a number across the country, 
they hired college students who were computer science majors or 
even who just knew how to run computers and that solved an 
immense number of problems just by doing that. The kids love to 
do it, even a few high school kids who were capable of doing 
it.
    But I wish we really had hotlines in every community to 
deal with problems. There should be, I think, a big sign in 
every polling place that if you have any difficulties call this 
number; and it rings directly in the city or county clerk's 
office so they can deal with it directly and immediately. 
Because no one should be denied their opportunity to vote.
    A question I have--and I don't know which of you would be 
best able to answer this. First of all, poll watchers--parties 
have always provided poll watchers. Aren't they there anymore? 
They are usually the ones who have an interest and make sure 
that everyone votes. Are they not fulfilling that function 
anymore?
    Mr. Moore. Mr. Chairman, Ranking Member, I will be glad to 
speak to that. There are several organizations, many of them in 
this room, through the national coalition, which has over 80 
organizations that are involved in that activity. There is a 
number of the lawyer-type organizations that are also 
monitoring elections. We have a big plan with Pennsylvania with 
Voter Action and a number of other groups. So, ``that'' 
monitoring is happening on the nonpartisan side, and I believe 
the State parties also do have election monitors that are 
designated.
    Mr. Chairman might very well know about how that works in 
Pennsylvania, but that is still happening. And they do have two 
very different roles on the inside of the polls and on the 
outside of the polls.
    Mr. Ehlers. Yes, I agree. But, in my experience, the poll 
watchers, the party poll watchers that are there to make sure 
that the members of their party are able to vote, I also find 
them to be very helpful just in answering questions. Because 
many of them are very well educated, very knowledgeable and 
have been trained to do that.
    I had one other question at the tip of my tongue, and I 
have forgotten what it is. Sorry, Mr. Chairman. I'll come back 
to it later.
    The Chairman. We will come back to you, if you would like.
    Mr. Gonzalez, any questions?
    And I have to give you a little briefing. Mr. Gonzalez was 
a Florida 13 expert. We dumped that election in his lap, and he 
has done a yeoman's job, spent time and time again deciphering 
through that in meeting after meeting. We thank you for that. 
I'm sure you are an expert in answering questions as well as 
asking them.
    Mr. Gonzalez. You are very generous, Mr. Chairman. I am not 
real sure if everybody shares that glowing analysis.
    No, I think the Florida situation was resolved, and I think 
in a way it should have been.
    I do have a question, Mr. Smukler, quickly. The MyVote1 
hotline, how do you get the information out there? How is that 
disseminated to the voter that that's the number that they 
should be calling if they have any problem?
    Mr. Smukler. Well, we try and develop partnerships with 
media organizations, and the partnership with Tom Joyner has 
given us a promotional platform. In 2004, our partnership with 
NBC News gave us a promotional platform.
    I will say quite frankly I have reached out to Christian 
radio broadcasters to try to broaden the radio platform and try 
to get into every market. It is not so easy, but I will say 
that what I think we have shown with MyVote1 is there are media 
organizations like Tom Joyner that are willing to promote a 
hotline number and use a hotline number to service their 
listeners or service their viewers. It does give us some 
insight into how to promulgate a hotline number.
    I spent a fair amount of time going across the country to 
Secretaries of State asking them if they would consider a 
hotline. Most of them told me that they in fact have hotlines, 
but the dirty little secret in this game is if you have a 
hotline and don't have resources to service the hotline, there 
is no incentive to promote the hotline. So a hotline that a 
Secretary of State has that is not promoted is just a voicemail 
system going nowhere.
    Mr. Gonzalez. We are limited, and I want to get to a couple 
of other witnesses, but, quickly--I think Ms. Martinez may have 
touched on it--it always seemed to me if you want to reach just 
about everybody out there is, What does everyone have in 
common? That is usually a utility bill, a phone bill and so on. 
And I would think--I know in my city, I think it would be an 
easy task, and I think the individuals that service and provide 
those services, the companies, I believe, would be very 
cooperative.
    And I just have always thought--and it is good to have 
media, whether it is CBS or Mr. Joyner or whatever--I think 
that's incredibly important. But I'm thinking getting that into 
the houses where you have it printed--it says, you have a 
question on Election Day, this is the number that you are going 
to call. I never understood, and we never followed on that.
    The other thing is, I have gone through the flow chart of 
calls made to MyVote1. You do not get a live person until the 
end of the process, and that live person is going to be 
somebody--let's say in San Antonio that would be the election 
administrator's office.
    My concern is, as these problems are developing--now Mr. 
Joyner was able to identify some of those and say we have 
problems in such and such an area and such and such a city. 
They don't have ballots. The lines are too long and such. But 
we didn't have that oversight or whatever, who is privy to the 
information that you are accumulating?
    It's going to be really after the fact, is what I am 
getting at. How do we plug into this information that is coming 
through the hotline so that we do have those organizations, 
whether they are governmental or private, such as Mr. Moore's 
organization or Ms. Martinez's. I know Zoe Lofgren had Lawyers' 
Committee, or People for the American Way. Is there some way 
that we can actually plug into this information, rather than 
after the fact?
    Mr. Smukler. Yes. And in fact, it is easy to plug into the 
information via Web site where you can drill right into the 
data as it is coming in. All of these, organizations and many 
of the organizations that you have--that you have cited have 
the capability, had the capability in 2004 to directly access 
the database as the data was streaming in real-time to it. In 
fact, I would be thrilled if secretaries of state would be 
willing to drill into this database as well. But it is a--you 
know, it is a big task for what are some relatively small 
organizations to get the awareness of a hotline so that 
secretaries understand the value of the data. And in fact, you 
know, with the leadership of the Chairman and your committee, 
hopefully this hearing will alert secretaries of state that 
there is a database that is being generated in real-time on 
Election Day that they can drill into so that the local county 
board of election in San Antonio sees the data as soon as we 
see the data, as soon as Tom Joyner sees the data. Because at 
the end of the day on this hotline, we transfer every caller to 
a local board of election because that local board of election 
is state constitutionally charged with helping that voter. And 
so they should take the data on the front end just as well as 
getting the call on the back end. And we would welcome 
secretaries of state and local county boards of election to do 
just that.
    Mr. Gonzalez. Thank you very much. And a special thanks for 
everything you do as well as to the other witnesses. And I 
yield back, Mr. Chairman.
    The Chairman. Thank you. Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. Just to wrap up a few 
things. Have any of you discovered that part of the problem is 
that voter registration is done by so many different groups and 
that they just do it sloppily and don't get all the information 
out? Is that part of the problem?
    Ms. Martinez. I mentioned that a little bit at the 
beginning of my statement. And there are a lot of organizations 
that do not--nonprofits political parties that do voter 
registration. And what we had found in 2004 where the voter 
registration hot spots were happening on the data that Ken was 
just describing, you could see it on the map, you know, 
flashing. And it turns out that that is where so many of the 
organizations were doing a lot of their voter activity. You 
know, we are talking about Allegheny County, we are talking 
about Columbus, Denver, a lot of the purple states, so to 
speak. And again, one of the things that we did after that was 
try to find out why exactly was that happening, why were voters 
in these, what we called ``hot spots'' were encountering so 
many problems with not being on the roles. And we found that 
talking to elections officials that they had not--they did not 
know that these registrations were coming in. They read about 
it in the media that there were groups that were operating very 
aggressively in their area but they had no idea exactly how 
many were coming in.
    And so one of the things that I talked about earlier was, I 
think it is incumbent upon all of our groups that do voter 
registration, whether it is partisan or nonpartisan, is to 
communicate with the elections officials so that they can 
deploy the computers, the staff to be able to process those so 
that when a voter shows up at the polls, they are actually on 
the roster. But it is a serious issue.
    Mr. Ehlers. Mr. Moore.
    Mr. Moore. Yes, Mr. Ehlers. I was one of the organizations 
and people who worked on passing the national Voter 
Registration Act for over 6\1/2\ years. Many of our groups want 
to do voter registration and want to do it more effectively. 
Our problem is, every year through voter purges, hundreds of 
thousands of people are taken off. And so it is not like you 
can register to vote at age 18 and then stay on the books. If 
you move, as most people do, young people, low-income people, 
there is this constant cycle of being taken off the list. So I 
don't think there is too many people doing voter registration. 
I think there is not enough. But we can't compete with the 
dollars out there that are given to officials to remove people 
from the list and very few dollars going to help do effective 
voter registration.
    So we are not a very rich organization, but we try to do 
the best we can. But I can't compete with the hundreds and 
thousands of people who are taken off of the list and still say 
that we are expanding our democracy when there is 200,000 
coming off in one State and only 15,000-20,000 coming on the 
books on a yearly basis.
    Mr. Ehlers. Mr. Bonifaz.
    Mr. Bonifaz. Mr. Congressman, I would also just add to 
that, that as I highlighted in my opening statement, there is 
now this trend in which we are outsourcing to private companies 
for key election functions, including the maintenance of voter 
registration databases and there is no real oversight of that 
process. And so when you see the kind of flaws that occurred, 
as I highlighted in New Mexico, a presidential caucus and in 
other States, there needs to be a response to this if, in fact, 
these companies are not properly maintaining these voter 
registration databases.
    Mr. Ehlers. Frankly they should be fired and get another 
one. Outsourcing is not necessarily the problem. Outsourcing to 
good companies is the answer. One last quick one, and all these 
calls, are you getting any complaints about fraud, someone 
observing fraudulent voting?
    Mr. Smukler. We get very few calls that speak to either 
individual fraud or systematic fraud. We have gotten very few 
calls on the hotline on fraud.
    Mr. Ehlers. That is comforting, provided it is not done so 
skillfully you can't see it.
    Mr. Smukler. Well, and we frankly don't get very many 
coercion calls and intimidation calls, although they have been 
tracking up a little.
    Mr. Ehlers. Good. Well, frankly, I think our voting system, 
Mr. Chairman, is with all the fuss and bus and bother over the 
past years, I think it has substantially improved. Everyone is 
far more alert now. And I am very pleased with the progress we 
have made partly as a result of the work of this committee but 
more likely as a result of the work of the communities and the 
States that are really taking your complaints and our concerns 
seriously. So thank you very much for being here.
    The Chairman. Thank you. We have a vote coming up in a 
couple of minutes. We have one more--one of our colleagues 
asked to sit in, Mr. Meek. And he would like to be recognized 
for a question or two. And I hope that Florida can count this 
time, not like the last two times. My condolences to you.
    Mr. Meek. Thank you, Mr. Chairman. And I want to thank the 
members of the committee for allowing me to be a part of this 
discussion today. And I want to thank the witnesses for being 
here. Many of you I know and a number of you that are even 
sitting in the audience, I feel like I am in a Baptist church 
and there are several ministers of the gospel out there that 
want to preach the sermon.
    Let me just quickly say that I am glad that this coalition 
has been created to make sure that every vote counts. And Mr. 
Joyner, you know over the years that you have been pushing this 
and every year refining it even more. And I am glad that NAACP 
and many of you have hooked up together in trying to make it 
better. But what I do see based on the trends of voting 
throughout the country, need it be blue or red States, that 
they are off the charts. They are to the point where they're 
general election numbers and beyond.
    So I am wondering what happens when you get to November. 
Because I don't think government can move fast enough, Florida, 
case in point. We can't have another vote in Florida because 
the machines are out. Or the machines--there are not enough 
machines, and there are never enough machines. So how do we get 
the public ready, set, go? Ms. Martinez, you brought up a very 
interesting point as it relates to knowing where one's 
registration is in the process. Voter registration cards are 
getting there sometimes days prior to the day of voting 
because, you know, folks, what have you, procrastinate or what 
have you.
    But throughout the country, like in Miami/Dade County, they 
are cutting the registrar's office ability to be able to 
process these voter registration forms. So Mr. Chairman, my 
question is going to go along the lines for the entire panel, 
how do we get folks prepared for getting themselves straight? I 
mean now. If they miss the primary season or what have you, how 
do we get them excited about moving through the process and 
building what I think Tom--Mr. Joyner, I am sorry. We are 
friends. It is hard for me to call you Mr. Joyner. How do we 
get local coordinating committees together to say that everyone 
in every community, communities of good will, it could be white 
or black or whatever the case may be. How do we get them 
towards this--working with the voter now? Because I don't think 
government is going to be able to move fast enough and to be 
able to get the information out there.
    What are some of the plans that y'all see as a coalition 
how we are going to get there and how we can get elected 
officials involved in making sure that happens, to get the kind 
of muscle that is needed to get the registrar's office at the 
table, to get the Secretary of State at the table to make sure 
that these individuals are right, the registration's right and 
they know their precinct well in advance before it even comes 
down to voting day or early voting?
    Mr. Joyner. How do you get government to talk to election 
officials and get them prepared for this onslaught of new and 
excited voters that have never voted before, have never 
participated in this process? That is the question. I don't 
know how to answer that. That is why we are here today to say 
that this historic election season has produced some very 
emotional first-time voters. And they are not--we are not--as 
Ken said, as Ken Smukler said, we don't get calls about 
conspiracies or fraud. But we get calls of suspicion of 
conspiracy and fraud because we are looking for it because of 
the 2000 and the 2004 presidential election. And there might 
not be anything happening that is under--that is illegal or 
fraud at the polling place. But it is perceived as that. And 
the perception is everything. And the perception is what might 
disenfranchise a lot of voters from participating in the 
November election.
    Congressman Meek, I don't know how to get that across. That 
is why we are here. These election boards weren't prepared for 
these record number of people to show up at the polls. They 
weren't prepared. They didn't have enough machines. They didn't 
have enough people. Before in primary elections they may have 
had a fraction of the number of people that showed up. And if 
we want to--if we want the election process to be as exciting 
for them as it, you know, it has to be a very pleasant 
experience. And that is why we are here today, to find out how 
to make that happen.
    The Chairman. Thank you, sir. We have a vote on. And I 
would like to dismiss this panel. I think it might be past Mr. 
Joyner's bedtime. He has got to get up at 3:00. But I want to 
thank all of you. Thank you for your participation. Thank you 
for enlightening us. And we will go further with this and make 
sure that we can come to a perfect Election Day one day. Thank 
you all, and again, thank you for your participation. Our 
second panel, we should be back in about a half-hour or so. We 
will be ready for our second panel. So we are recessed for at 
least a half-hour. Thank you.
    [Recess.]
    The Chairman. I would like to call back to order the 
Committee on House Administration.
    Our witnesses today are April Pye, interim director of the 
Fulton County, Georgia, Registration and Elections; Alisha 
Alexander, elections administrator of Prince George's County, 
Maryland, board of elections, and Linda Weedon, director of the 
Maricopa County, Arizona, board of elections, and I would like 
to commend all three of you for your public service. I know 
firsthand how difficult it is to be an administrator of 
elections, and I look forward to your testimony today.

 STATEMENTS OF APRIL PYE, INTERIM DIRECTOR, FULTON COUNTY, GA, 
    REGISTRATION AND ELECTIONS; ALISHA ALEXANDER, ELECTIONS 
ADMINISTRATOR, PRINCE GEORGE'S COUNTY, MD, BOARD OF ELECTIONS; 
   AND LINDA WEEDON, DIRECTOR, MARICOPA COUNTY, AZ, BOARD OF 
                           ELECTIONS

    The Chairman. Ms. Pye.

                     STATEMENT OF APRIL PYE

    Ms. Pye. Chairman Brady, and Ranking Member Ehlers, Mr. 
Chairman and Members of the Committee on House Administration, 
thank you for the opportunity to testify today regarding the 
February 5, 2008, Presidential Preference Primary Election in 
Fulton County. I bring you greetings on behalf of the Fulton 
County Board of Registration and Elections and the Fulton 
County Board of Commissioners. My name is April Pye and I am 
currently the Interim Director of the Fulton County Department 
of Registration and Elections. I have been serving in that 
position since January 2007. The mission of the Fulton County 
Board of Registration and Elections is to ensure that the 
registration and elections process is efficiently and 
effectively provided to eligible citizens of Fulton County 
according to applicable laws and rules, and to meet those needs 
of a rapidly growing voter base in Fulton County, we have 
sought to adhere to the rules and regulations set forth by HAVA 
and the State of Georgia. Fulton County is the largest county 
in the State of Georgia with an estimated population of 960,009 
with 552,613 registered voters. We have 342 precincts and 
operate a total of 266 poll locations on Election Day with a 
staff of 24 permanent employees and approximately 80 temporary 
staff during elections. We generally process 100,000 to 200,000 
new voter registrations during major election years.
    It is important to note that elections in Georgia have been 
under a constant state of flux since the 2000 general election 
with election officials having to make quick adjustments based 
on changes in State law and the introduction of new technology. 
The electronic overhaul of elections brought increases in the 
cost to conduct elections. Maintenance and preparation of 
technical equipment requires staff with specialized skills and 
requisite pay, constant upgrades and specialized storage for 
voting equipment. Obtaining funding has been a challenge 
because most governing authorities do not see the immediate 
need until major elections, such as this year.
    As a result, improvements in terms of purchasing additional 
equipment or hiring additional permanent staff has not kept 
pace with the growth in voter rolls and the changes in the law. 
Georgia election officials are contending with very tight 
budget constraints this year and cutbacks due to a very 
depressed economy during what will be one of the largest 
election years in the history of elections. Fulton County faced 
major reductions in the general fund budget due to recent 
incorporation of four new cities and the registration and 
Elections Department's budget request was cut by $852,000, 
reducing the 2008 elections budgets and eliminating all 
enhancement requests for new positions and election supplies.
    Despite this, election officials do not use these 
constraints as an excuse or a crutch, in fact, they embrace the 
challenges and we make the most efficient use of resources 
provided to us. Our ultimate goal is to ensure the voter has a 
pleasant voting experience and has a fair and equitable 
opportunity to exercise their right to vote. A great deal of 
planning and preparation is required in executing the many 
components involved in conducting an election from registering 
voters to conducting the election on Election Day.
    Election officials must successfully maneuver functions 
that are performed by separate departments and most businesses. 
We have oversight and administration of voter registration and 
elections office, we are human resource managers, we are voter 
education coordinators, we are computer and system management 
specialists, we are logistics experts, we are GIS mapping 
experts, data entry specialists and customer service reps, 
providing a myriad of services to enhance the electoral 
process.
    In preparing for the presidential preference primary in 
Georgia in Fulton County, which was moved forward a month by a 
change in the 2007 legislature, our projections for the 
allocation of equipment and supplies were based on current 
numbers of active voters and the history of turnout for 
previous similar elections. Were we totally prepared? Based on 
past historical data and turnout statistics of 30 percent, yes, 
we were. Was there a larger turnout than expected? Yes, we were 
pleasantly surprised with the 47-percent turnout. The February 
5, 2008 Presidential Preference primary was a very good 
indicator for us and for other election officials throughout 
Georgia as to what we can anticipate in terms of high precinct 
turnouts for the coming November election. We have 2,976 touch 
screen voting units, which is a ratio of 1 unit per 186 voters. 
We have 640 express poll units, a ratio of 1 unit per 864 
voters. This is an adequate ratio of voter to machine. However, 
our office received numerous calls and e-mails on Election Day 
regarding the long lines and wait times at several of our 
larger precincts.
    Callers attribute the problem to the lack of sufficient 
number of electronic poll books at the polls or inexperienced 
poll workers. A post-election assessment revealed that 90 
percent of the challenges in relation to the express poll units 
were user errors and not equipment malfunctions. Also, the 
extremely short February 5 ballot took voters less time to 
vote, between 15 and 30 seconds, than it took our poll workers 
to create the voter access cards with the express poll, which 
was taking about 40 seconds to a minute, causing the express 
poll lines to bottleneck. This created the perception to voters 
that the TS units were not being used.
    Each expressed concern that we received was taken into 
account and measures have been put in place to address them. 
One thing that would help to decrease the wait time at the 
polls is early voting. The Georgia legislature passed into law 
during the 2008 session ``no excuse'' absentee voting, for the 
45-day absentee voting period.
    So to increase participation during our early voting, we 
requested funding through the Board of Commissioners for three 
additional early voting sites the week prior to the election 
which would give us a total of six and we were extending the 
hours of voting to 7:00 p.m. We concluded that more express 
polls are needed at the polls with larger numbers of registered 
voters and funding has been requested for this item. The longer 
ballot in November will cause voters to spend more time at the 
TS unit, causing the flow of voters to move more evenly 
throughout the process.
    Furthermore, we are adjusting our training program to 
include more specific comprehensive hands-on training with 
extensive post-testing of our poll workers. And through our 
voter education efforts and media outlets and the county Web 
site, we are encouraging voters to take advantage of absentee 
voting by mail and in person, if eligible, because in November, 
we do anticipate a very high turnout that may result in long 
waits at some polling precincts. So voters who are unable to 
wait in line are strongly encouraged to take advantage of one 
of these two options.
    Radio and television personalities through broadcast media 
provide an extremely important service and an outlet to the 
listening audience, elected officials and elections officials 
around the country. Often the voting public who is not familiar 
with the laws governing voter registration and elections 
receives information from avid community advocates and media 
personalities who mean well but whose information often 
conflicts with the laws in different States. This is often the 
case with syndicated radio stations that reach a broader 
audience and provide more general information. Their listeners 
are not aware that Georgia laws governing elections may be 
different than in other States. When they arrive at the polls 
and encounter a problem due to this conflict, they immediately 
take issue with the poll worker or election official who is 
delivering the message. We see this quite often in the case of 
provisional voting and absentee voting. It is not always 
understood that election officials do not make the laws and we 
can't change the laws, but we are required to adhere to them 
and to enforce them.
    It would be vital for all media outlets and election 
offices to work together to ensure voters in each State receive 
accurate information about the laws governing their respective 
States. In Fulton County, our focus is integrity, honesty and 
transparency of elections. We believe education is the key, and 
through coordination and cooperation with broadcast and print 
media and community advocates, we will be able to provide our 
citizens with accurate information about the voter registration 
and elections process. Thank you, and I will be happy to answer 
any questions you may have.
    The Chairman. Thank you.
    [The statement of Ms. Pye follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.099
    
    [GRAPHIC] [TIFF OMITTED] 42953A.100
    
    [GRAPHIC] [TIFF OMITTED] 42953A.101
    
    [GRAPHIC] [TIFF OMITTED] 42953A.102
    
    [GRAPHIC] [TIFF OMITTED] 42953A.103
    
    [GRAPHIC] [TIFF OMITTED] 42953A.104
    
    The Chairman. Ms. Alexander.

                 STATEMENT OF ALISHA ALEXANDER

    Ms. Alexander. Yes. Good afternoon. My name is Alisha 
Alexander, and I am the elections administrator for Prince 
George's County, Maryland. I would like to thank you, Chairman 
Brady, Ranking Member Ehlers and the committee members for 
allowing me the opportunity to discuss some of the lessons 
learned after the 2008 presidential primary election. Let me 
start off by saying that Ms. Pye must have been looking at my 
talking points because she covered many of the points that I 
was going to cover. However, I am going to move forward. Before 
we talk about lessons learned, I think it is important to 
discuss some of the challenges that we, as local election 
officials, face. First and foremost, we as local election 
officials have seen more change prior--during the past 8 years 
than we have in the 30 years prior to the 2000 presidential 
election combined. However, staffing and resources in many of 
our agencies have remained stagnant. It has been difficult to 
get county, State and Federal election officials to understand 
that it takes an insurmountable amount of work to conduct a 
countywide election. The belief is that once the election is 
over, that there is no activity for 2 years, not understanding 
that it takes a minimum of 12 months to plan for a countywide 
election.
    This doesn't include the fact that many of us provide 
election support to our local municipalities. It is sad that 
something so important is grossly underfunded and understaffed 
but yet we are expected to conduct flawless elections. Another 
major challenge is voter education. And when I say voter 
education, I tie it to voter responsibility and managing voter 
expectations. We in Prince George's County, Maryland realized 
especially after the 2000 presidential primary election that we 
need to do more in the area of educating voters. We as election 
officials have to come up with the strategy to get voters to 
think and inquire about their registration status prior to 
Election Day. Many voters went to the polls and didn't know 
their party affiliation; they were not aware of the closed 
primary laws in the State of Maryland.
    To make matters worse, there was--we received more than one 
call during the March 5, I believe--March 4, I am sorry, Texas 
primary, and I believe another State when--of individuals in 
our county who went to the polls on that day and were wondering 
why our polls were not--the polls weren't open. Our 
presidential primary was on February 12. That is the reality of 
how uninformed some of our voters are.
    We received complaints about long lines. And in any 
election where you have a large voter turnout, you are going to 
have long lines. I can't speak for any of my colleagues, but I 
welcome long lines. And I say that because it shows that the 
voters are engaged. We have historically complained about low 
voter turnout, but when voters go to the polls in droves, we 
complain. We can't have it both ways. We just can't. We do 
recognize that voters get discouraged. And that is where 
managing voter expectation comes to play. During the 
presidential primary election we were told--we told the poll 
workers actually if there are long lines, to keep the voters 
informed, give them approximate wait times.
    Also, poll workers were instructed to find out if each 
person in line was listed on the precinct register so that they 
would not get frustrated by standing in line only to find out 
that they weren't registered or were at the wrong polling 
place.
    Also, we want the voters in the State of Maryland to know 
that our election process is transparent. And I am sure that is 
the case in many jurisdictions around the country. We conduct 
public demonstrations prior to every election to determine the 
accuracy of the voting units. And although we advertise, public 
participation is minimal. The election return process, the 
absentee and provisional ballot canvas is open to the public. 
We want voters to understand the elections process so that when 
they go to the polls, they feel confident in the process. When 
voters hear words like ``trickery'' and ``tricknology'' over 
the airwaves from various media venues, they naturally become 
cynical. And that is why I am making a personal plea to all of 
the media venues to use their power in disseminating 
information to assist election officials in educating the 
voters and encouraging them to volunteer and become a part of 
the process.
    And to make my last point, there has not been any 
consistency in elections administration. Every election since 
2000 the local boards of elections in Maryland have either been 
required to add new technology or new processes. Any time 
technology is instituted, election officials must develop new 
business processes. When new business processes are developed, 
there has to be a means to test it prior to the election so 
that it can be refined. If election officials are not given 
adequate time to test, the testing is done on Election Day. And 
we have seen in many instances around the country where those 
types of results were less than desired.
    In conclusion, election officials are professionals who are 
deeply committed to conducting fair and accurate elections. 
Again, we want voters to walk into the polling place and have a 
good voting experience and feel confident about the integrity 
of the process. Based on our experience in the 2008 
presidential election, we have learned that there must be 
stabilization and consistency. We cannot continue to change 
technology and processes every election cycle without adequate 
time to train poll workers and educate the voters and expect 
positive results.
    We have learned that we need time, monetary and human 
resources to perfect the current system. The American public 
deserves a democracy that works.
    The Chairman. Thank you.
    [The statement of Ms. Alexander follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.105
    
    [GRAPHIC] [TIFF OMITTED] 42953A.106
    
    [GRAPHIC] [TIFF OMITTED] 42953A.107
    
    The Chairman. Ms. Weedon.

                   STATEMENT OF LINDA WEEDON

    Ms. Weedon. Thank you, Mr. Chairman, committee members. The 
voter is the most important part of the election process. 
Having a direct connection to an operator and not a recording 
in our call center has made a huge difference to our voting 
public. We are a county of 1.5 million registered voters. The 
fastest growing county in the Nation. As a result, newly 
arrived voters come to Maricopa County from every State in the 
country. With them comes their expectation of how the laws and 
the election process worked back in their experience with their 
former State or county. At first, we tried to answer the calls 
ourselves. That was an unmitigated disaster.
    We were so busy answering the phones, we could not 
concentrate on the business at hand of conducting the election. 
In 1996, the Star Call Center was created by a decision of the 
county recorder, the treasurer, the assessor and the county 
board of supervisors to combine resources. One call center to 
answer basic questions and route callers to the appropriate 
agency personnel on complex matters. The Star Call Center has 
now answered more than 12 million calls in 12 years. Two 
million of those were election calls. They have 33 permanent 
staff workers and they bring on 70 temporary workers during 
their peak seasons. Our recorder, Helen Purcell, has testified 
before you in the past. She has the total responsibility of the 
elections process in Maricopa County. With more than 1.5 
million voters, we had to create a system to give priority to 
the calls being placed by the voters. We also created separate 
hotlines, one for the polling place workers, one for our 
trouble shooters and one for the lawyers. One group that I 
manage is a hotline set up for calls from the polling place 
workers. Those phones are manned from noon the day before the 
election through the close of the polls on election night. 
There are 1,142 polling places in Maricopa County.
    We keep in touch with each and every polling place through 
our trouble shooter program. If a call comes from a voter or a 
political party with an issue, a trouble shooter is dispatched 
to that location. The final hotline is for the lawyers. They 
have staff assigned to enable them to respond to any field 
situation that might arise. By having the three separate 
hotlines that work separately from our general call center 
number, we can rapidly respond to voter calls.
    The call center has live operators, not just an automated 
system. A brief recording at the beginning usually answers most 
questions. If not, the caller can request a live operator. The 
average wait time is 3 minutes. As a management tool the 
elections director and the county recorder have a banner 
visible on their computers indicating how many calls are in the 
queue, how many operators are available and the time the 
longest call that is holding. More than 26,000 people called on 
general election day in 2006. The evening prior to the 
election, the call center remains open until midnight to answer 
questions from voters. The call center begins taking calls 
before the polls open and remains open on Election Day until 
the polls have closed. The recorded message at the first 
greeting gives the times that the polling places are open and 
reminds everyone that if you are in line by 7:00 p.m. you are 
able to vote. Spanish language is always an option. Information 
is given on how to access our Web site where the voter can view 
their sample ballot. They can find their polling location and 
they can get directions and a map to their location. Because 
the system is dynamic, we can ask the call center manager to 
change the message as necessary to fit evolving situations. In 
the past we have had emergencies arise and that we have been 
able to deal with them rapidly by changing that message on our 
call center line. Voters can request an early ballot by a phone 
call to the call center. The call center also mails voter 
registration forms and provides instructions on how voters can 
register online. Voters can request Braille ballots or large 
print ballots, and they can inquire about military and overseas 
voting. After any election, voters can call in and find out if 
their provisional ballot counted. Most questions are easily 
answered by the call center operators. We listen to our voters 
and take their suggestions and their complaints seriously.
    Arizona's presidential preference election was held on 
February 5. We experienced our highest turnout since 1996. It 
was over 54 percent. The Arizona presidential preference 
election was a closed election, open only to voters registered 
in the Democratic or Republican parties. In the days leading up 
to the election, 50 percent of the calls to the call center 
were from voters registered as independent or without a party 
affiliation. The call center averaged 3,000 calls a day prior 
to the election. On Election Day, the call center received more 
than 16,000 calls. It is important to note that all issues 
brought forward by the call center go into our award-winning 
reporting database. After the election, we continued to review 
the issues that were presented and determine how we can better 
handle similar situations in the future. We can always improve 
the system. The voters are our greatest resource for new and 
important ideas. Thank you.
    [The statement of Ms. Weedon follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.108
    
    [GRAPHIC] [TIFF OMITTED] 42953A.109
    
    [GRAPHIC] [TIFF OMITTED] 42953A.110
    
    The Chairman. Thank you. Let me just start by asking all of 
you, are your volunteers, are your poll workers the temporaries 
you use, do you use also temporary workers on Election Day?
    Ms. Pye. Yes.
    The Chairman. How long do they work?
    Ms. Pye. Our poll workers only work the election on 
Election Day.
    The Chairman. Just Election Day?
    Ms. Pye. Yes.
    The Chairman. How about the extra work at the voter 
registration office, the county board; are there temporary 
workers there?
    Ms. Pye. We have temporary workers in our office that work 
with us during elections, beginning--say for the election that 
is coming up in July--they started working with us this month 
and will work through the end of the year throughout all of the 
elections.
    The Chairman. So maybe like 6 months?
    Ms. Pye. Yes.
    The Chairman. 6 months temporary?
    Ms. Pye. Yes.
    The Chairman. Same thing, Ms. Alexander?
    Ms. Alexander. Yes. The same thing. We use as many as 50 to 
60 temporary workers and particularly during a presidential 
primary election cycle where the voter registration is 
typically higher. However, we have approximately 13 that we 
utilize--13 temporary employees that we utilize on a regular 
basis just to maintain our regular normal core work load.
    The Chairman. So you will hire them for a couple of months 
and then rehire the same people back again?
    Ms. Alexander. That is right, yes.
    The Chairman. Same thing in your county?
    Ms. Weedon. Yes, Mr. Chairman. We hire poll workers for 
each specific election and they are trained for each election. 
They go in the day before to set up the polling place. And then 
they are there on Election Day from a 5:30 until the polls 
close, which can be quite late sometimes.
    The Chairman. You don't hire any temporary workers to do 
the paperwork prior to registration?
    Ms. Weedon. Yes, we do hire temporary workers to do voter 
registration, to input information, to do the early voting 
process. We usually hire around 80 temporary workers leading up 
to the election.
    The Chairman. 3 months, 6 months, is there any time frame?
    Ms. Weedon. Usually starting in June and July, we will 
start bringing on our temporary workers.
    The Chairman. The reason I am asking you, I like to relate 
where you are from. I am from Philadelphia. And our election 
board hires our temporary workers for 3 months and then they 
can't succeed themselves for a calendar year. But because of 
unemployment purposes, you know, they can work 3 months and 
then they can't succeed themselves for a calendar year. They 
have to wait a whole calendar year before they get rehired 
again. And that is a re-education process over and over and 
over. I am sure that you have a turnover. I am sure there is 
some turnover.
    Ms. Alexander. Yeah, there is a turnover. And again, there 
is a process of retraining over every election cycle.
    The Chairman. Well what is your turnover roughly? Is it 50 
percent?
    Ms. Alexander. I would say our turnover is about--I would 
say it is about 35 percent.
    The Chairman. That is not bad because this training 35 
percent instead of 100 percent of people. And a lot of times 
they may come back after a calendar year. They are gone a 
calendar year. And I am trying to rectify that process in the 
City of Philadelphia. Because we can only hire them 3 months 
and we hire them ongoing 3 months. That is just a bigger need 
prior to elections and then they are gone and they don't come 
back for the next two elections. That year will take you 
through two more and then you have to retrain them or train all 
new people. And that is a problem. You mention money. Everybody 
needs money. And we heard your plug. We understand that. 
Everybody needs money, and time.
    You know, everybody's election unfortunately in the 
primaries were at different times all over the county. The 
generals are the same, so you know, what you are looking at for 
the general. And the time frame is what I was concerned about 
with the poll workers. Not only the poll workers on that day, 
because a lot of them where I am from, the City of 
Philadelphia, the poll workers were brought on by some of the 
political people that worked the polls. Some are paid by 
election boards and some are paid politically. And that is a 
one-day kind of thing. They usually know they are going to work 
Election Day. They take off.
    That is relatively easy. The problem that we face is with 
the county boards. It is a clerical error, just a mistake that 
is being made because there are new people and people that are 
registered--you talk about provisional ballots. You talk about 
the education process. And I heard you, you are waiting in line 
to vote for an hour and then by the time you get up there, 
somebody tells you, you don't vote here. You vote someplace 
else. And then they get mad at the election worker who it is 
not his or her fault. They need to take it out on somebody.
    The most important thing they take it out on, they take it 
out on the process of voting. They probably don't go vote. They 
probably won't go wait in the other line.
    I like what you say about the election workers when there 
is a long line. In the City of Philadelphia it is 8:00. But if 
there is a line, then the election worker is supposed to stand 
in the back of the line at 8:00 and nobody behind them can 
vote. We have had polls open until an hour and a half because 
of a big election. But those people that are waiting in that 
line can't go anywhere else. If they are not in the right 
place, they are not in the right spot.
    So it is a good idea to educate them when they are waiting 
in line. I am going to learn from you too, letting our people 
know that that is not a bad idea to do that. But it is a 
problem. You know, uniformity is a problem. It would be great 
to have everybody receive the same training. Everybody's 
ballots are kind of the same. We are in the State of 
Pennsylvania. We have all kinds of municipalities. Every one is 
different. And they are all--and myself, I run in two 
districts. I run in the City of Philadelphia, and I run in 
Delaware County. I have got two different numbers, different 
machines, different ways to work them. But look, we have to do 
what we have to do. And you do a good job trying to allow other 
people to give them the opportunity to exercise the right to 
vote. And we applaud you for that.
    The best thing we have going started a year or two is the 
provisional ballots which we tell it, everybody vote. We will 
sort it out later. Let them all vote. We will sort it out 
later. If you are in the wrong place, the right place. If you 
are in the right place, or if you are in the wrong place, we 
can even transfer that over to the right place as long as you 
are an eligible voter. So we applaud you and all you are doing. 
Keep continue doing it. Hopefully we can do it a little better. 
Mr. Ehlers, any questions?
    Mr. Ehlers. Thank you, Mr. Chairman. I think the three 
young women here have all the answers. I am very impressed----
    The Chairman. They just need the money.
    Mr. Ehlers. I am just very impressed with the way you run 
the show in your shops, and it looks like you have learned out 
how to do it right.
    Just to comment about the people who have to wait in line 
for a long time and find out they were in the wrong place. It 
seems to me every polling place should have someone who screens 
people the minute they come in the door. If they are in the 
wrong place, you say, I am sorry you have to go to so and so. 
And they will grumble about it, but at least they don't have to 
wait in line to find that bit of information out. I also agree 
with the Chairman, provisional ballots are a great thing. We 
can't use them if someone is in the wrong precinct because then 
they will be voting for different positions differently. Some 
of them overlap but not all of them.
    We have about 7 months to go until the 2008 general 
election. I take it you consider yourselves ready for that, 
right? What would you judge the readiness of the nation to be? 
You have contact with a lot of people. Do you anticipate if 
there are a number of problems across the country? Or do you 
think there is so much attention being made--being attached to 
all this now that everyone should be pretty well prepared?
    Ms. Pye. I will speak to that one. Ranking Member Ehlers, I 
anticipate or we anticipate that the problem with the upcoming 
November election is going to be on the end of voter 
registration. There will be a large number of groups out there 
who are registering people to vote. And in the past with large 
elections, some of those groups do not get the information to 
the county offices in time to get those people registered.
    In Georgia, we don't have same-day voter registration, so 
there is a deadline. And if we don't get those applications in 
prior to that deadline, then those people can't vote on 
Election Day. And it matters not that they go to the poll and 
vote a provisional ballot. They are not registered. So all they 
see is that at the Kroger store or whatever location, they 
filled out a voter registration application with someone. And 
they know they are registered. So I know that will be a major 
problem, and we will have the long lines. I know at one of our 
poll locations during the February election on an African-
American college campus, the poll worker had 245 provisional 
ballots because the students registered through someone that 
held a drive.
    The majority of them were not registered because we never 
got the applications. So those are some of the issues I think 
that we will deal with and that's why we feel that education is 
important, educating the voter. And we are, through our voter 
education team, ensuring that we are trying to work not only 
with the media but with community organizations such as the 
NAACP, the local chapters in Atlanta to reach out to these 
people and to help them or train them in getting the proper 
information from voters when they register and to getting the 
information to us in a timely manner.
    So we hope that that will help in terms of helping us to 
educate our voters so that they will understand the process and 
know that they need to check for themselves, you know, voter 
responsibility; check for yourselves to see if you are actually 
registered and contact our office.
    Ms. Weedon. Mr. Chairman, Ranking Member Mr. Ehlers, in 
Maricopa County, of course we hope we are prepared. I know that 
nationwide, the elections officials always conduct the election 
to the best of their ability with the resources that they have. 
I know that one of our issues is always getting polling place 
workers. Many of our workers are elderly and are getting slowly 
to the point of where they can no longer work for us. A lot of 
folks that are coming along aren't as interested in public 
service or community service and that sort of thing. And we all 
know we can't pay high dollars to those workers. They are doing 
a sacrifice to be there. But we try to work closely with our 
voter registration groups in Maricopa County. We have a staff 
member who works with them and with our observers, our 
political activist groups so to speak, so that we can educate 
them on Arizona laws when they go out and do their registration 
drives and that they will get those registration forms in to us 
quickly.
    And we are very fortunate that voters can register when 
they come into Arizona when they get their driver's license and 
then that will come to us through an electronic pass which is a 
lifesaver when it comes to staffing. So we do have some 
advantages along that line. But I can assure you we are doing 
our best to be ready for November.
    Mr. Ehlers. Thank you. And that is one of the advantages we 
have in Michigan. The Secretary of State also runs a DMV so 
when anyone changes a license, it is automatically in the 
system. Ms. Alexander, did you have something?
    Ms. Alexander. Yes. I was actually going to tie in to Ms. 
Pye's comment regarding voter registration, which actually is 
going to be a major issue for Prince George's County, Maryland. 
We have historically had many problems with the motor vehicles. 
Individuals going to the motor vehicles, registering to vote, 
and for whatever reason, our board of elections does not 
receive that voter registration application. And that is always 
a major issue. And I would venture to say that it is an issue 
nationally.
    Mr. Ehlers. I used to live in California and I was 
impressed there. They always mailed us ahead of time a notice 
of the election as well as a summary of the ballot proposition 
and a list of the people running for office. That is very 
expensive but it was certainly useful. California almost had to 
do it because they have all these proposals every year, and 
voters have to learn something about them. But that I think is 
a good thing to do. One other question, as I mentioned earlier 
in the first panel, running elections has been the 
responsibility of States and localities for a couple of 
centuries. Just recently, the Federal Government poked their 
nose into it with HAVA and now we have some other bills 
pending.
    What is your attitude about that? Do you think we ought to 
just keep our dirty hands off? Or do you find this to be very 
helpful that we are showing some interest and passing some 
laws?
    Ms. Alexander. I will speak to that. I actually don't 
think--I think it is good on one hand that the Federal 
legislators are getting involved in the process. However, I 
think that there needs to be close communication that I don't 
believe that there has been in the past with the local election 
administrators because we are the ones who conduct the 
elections.
    And let me give you an example. The Help America Vote Act 
of 2002 required that we in Prince George's County change our 
voting systems. We had approximately 6 months to institute--and 
I am not sure if this was a result of the State procurement or 
what the issues were regarding the voting units. But we had 
approximately 6 months to institute a full-fledged 
implementation and change of technology. Fortunately by the 
grace of God, we were able to pull it off. But we needed more 
time to get it done.
    Mr. Ehlers. We're struggling with that right now because we 
have another bill before us. I think it is a little late to act 
on it, but we are considering it.
    Ms. Weedon.
    Ms. Weedon. Mr. Chairman, Mr. Ehlers, I just wanted to say 
that I think it is good when you have your Federal oversight so 
you can have some uniformity throughout the Nation. And I say 
that also to let you know that my boss, County Recorder Helen 
Purcell, serves on the Technical Guidelines Committee of the 
EAC. So we get some insight into what goes on with their 
committee hearings and so forth. But I think we definitely need 
uniformity and that helps contribute to it when you have 
Federal oversight.
    Mr. Ehlers. Okay. Any other comments?
    Ms. Pye. I would just like to add to the comments that both 
Ms. Weedon and Ms. Alexander made, that I think it is important 
that we do have oversight from the Federal Government into the 
elections process. However, there is a need for uniformity, 
just as with provisional ballots just in talking to my 
counterparts, I realized that in Georgia, we handle provisional 
ballots differently than they handle provisional ballots. I 
think that has been confusing for a lot of voters because the 
word that gets out there via the media tells voters, for 
instance in Georgia, ``even if you are not registered, just go 
to the polls and vote, you can vote a paper ballot.''
    And I feel that there should be some uniformity because I 
know that it is up to the jurisdiction, the State jurisdiction, 
to implement the law regarding provisional ballots, the 
procedures regarding provisional ballots based on the HAVA law. 
And that ends up with procedures being different in every 
State, and sometimes that gets confusing.
    Mr. Ehlers. Well thank you very much for your comments. I 
appreciate it. I have no further questions.
    The Chairman. Thank you. Again, thank you for your time, 
your participation. You do a great job. Keep doing it. It can 
be frustrating from time to time. But like Ms. Alexander said, 
it is the right to vote, and you are there to ensure that they 
have that right. Thank you very much. We appreciate all your 
participation. I would now like to adjourn this hearing.
    [Whereupon, at 2:08 p.m., the committee was adjourned.]
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] 42953A.111
    
    [GRAPHIC] [TIFF OMITTED] 42953A.112
    
    [GRAPHIC] [TIFF OMITTED] 42953A.113
    
    [GRAPHIC] [TIFF OMITTED] 42953A.114
    
    [GRAPHIC] [TIFF OMITTED] 42953A.115
    
    [GRAPHIC] [TIFF OMITTED] 42953A.116
    
    [GRAPHIC] [TIFF OMITTED] 42953A.117
    
    [GRAPHIC] [TIFF OMITTED] 42953A.118
    
    [GRAPHIC] [TIFF OMITTED] 42953A.119
    
    [GRAPHIC] [TIFF OMITTED] 42953A.120
    
    [GRAPHIC] [TIFF OMITTED] 42953A.121
    
    [GRAPHIC] [TIFF OMITTED] 42953A.122
    
    [GRAPHIC] [TIFF OMITTED] 42953A.123
    
    [GRAPHIC] [TIFF OMITTED] 42953A.124
    
    [GRAPHIC] [TIFF OMITTED] 42953A.125
    
    [GRAPHIC] [TIFF OMITTED] 42953A.126
    
    [GRAPHIC] [TIFF OMITTED] 42953A.127
    
    [GRAPHIC] [TIFF OMITTED] 42953A.128
    
    [GRAPHIC] [TIFF OMITTED] 42953A.129
    
    [GRAPHIC] [TIFF OMITTED] 42953A.130
    
    [GRAPHIC] [TIFF OMITTED] 42953A.131
    
    [GRAPHIC] [TIFF OMITTED] 42953A.132
    
    [GRAPHIC] [TIFF OMITTED] 42953A.133
    
    [GRAPHIC] [TIFF OMITTED] 42953A.134
    
    [GRAPHIC] [TIFF OMITTED] 42953A.135
    
    [GRAPHIC] [TIFF OMITTED] 42953A.136
    
    [GRAPHIC] [TIFF OMITTED] 42953A.137
    
    [GRAPHIC] [TIFF OMITTED] 42953A.155
    
    [GRAPHIC] [TIFF OMITTED] 42953A.156
    
    [GRAPHIC] [TIFF OMITTED] 42953A.157
    
    [GRAPHIC] [TIFF OMITTED] 42953A.158
    
    [GRAPHIC] [TIFF OMITTED] 42953A.159
    
    [GRAPHIC] [TIFF OMITTED] 42953A.160
    
    [GRAPHIC] [TIFF OMITTED] 42953A.161
    
    [GRAPHIC] [TIFF OMITTED] 42953A.162
    
    [GRAPHIC] [TIFF OMITTED] 42953A.163
    
    [GRAPHIC] [TIFF OMITTED] 42953A.164
    
    [GRAPHIC] [TIFF OMITTED] 42953A.165
    
    [GRAPHIC] [TIFF OMITTED] 42953A.166
    
    [GRAPHIC] [TIFF OMITTED] 42953A.167
    
    [GRAPHIC] [TIFF OMITTED] 42953A.168
    
    [GRAPHIC] [TIFF OMITTED] 42953A.169
    
    [GRAPHIC] [TIFF OMITTED] 42953A.170
    
    [GRAPHIC] [TIFF OMITTED] 42953A.171
    
    [GRAPHIC] [TIFF OMITTED] 42953A.172
    
    [GRAPHIC] [TIFF OMITTED] 42953A.173
    
    [GRAPHIC] [TIFF OMITTED] 42953A.174
    
    [GRAPHIC] [TIFF OMITTED] 42953A.175
    
    [GRAPHIC] [TIFF OMITTED] 42953A.176
    
    [GRAPHIC] [TIFF OMITTED] 42953A.177
    
    [GRAPHIC] [TIFF OMITTED] 42953A.178
    
    [GRAPHIC] [TIFF OMITTED] 42953A.179
    
    [GRAPHIC] [TIFF OMITTED] 42953A.180
    
    [GRAPHIC] [TIFF OMITTED] 42953A.181
    
    [GRAPHIC] [TIFF OMITTED] 42953A.182
    
    [GRAPHIC] [TIFF OMITTED] 42953A.183
    
    [GRAPHIC] [TIFF OMITTED] 42953A.184
    
    [GRAPHIC] [TIFF OMITTED] 42953A.185
    
    [GRAPHIC] [TIFF OMITTED] 42953A.186
    
    [GRAPHIC] [TIFF OMITTED] 42953A.187
    
    [GRAPHIC] [TIFF OMITTED] 42953A.188
    
    [GRAPHIC] [TIFF OMITTED] 42953A.189
    
    [GRAPHIC] [TIFF OMITTED] 42953A.190
    
    [GRAPHIC] [TIFF OMITTED] 42953A.191
    
    [GRAPHIC] [TIFF OMITTED] 42953A.192
    
    [GRAPHIC] [TIFF OMITTED] 42953A.193
    
    [GRAPHIC] [TIFF OMITTED] 42953A.194
    
    [GRAPHIC] [TIFF OMITTED] 42953A.195
    
    [GRAPHIC] [TIFF OMITTED] 42953A.196
    
    [GRAPHIC] [TIFF OMITTED] 42953A.197
    
    [GRAPHIC] [TIFF OMITTED] 42953A.198
    
    [GRAPHIC] [TIFF OMITTED] 42953A.199
    
    [GRAPHIC] [TIFF OMITTED] 42953A.200
    

</pre></body></html>
